                  U.S. Department of Energy
                  Office of Inspector General
                  Office of Audits and Inspections




AUDIT REPORT
Follow-Up Audit on The Management of the
Plutonium Finishing Plant Project




 OAS-M-14-11                         September 2014
                                  Department of Energy
                                     Washington, DC 20585

                                       September 18, 2014


MEMORANDUM FOR THE MANAGER, RICHLAND OPERATIONS OFFICE



FROM:                   David Sedillo, Director
                        Western Audits Division
                        Office of Inspector General

SUBJECT:                INFORMATION: Audit Report on "Follow-Up on The Management of
                        the Plutonium Finishing Plant Project"

BACKGROUND

The Department of Energy's (Department) Plutonium Finishing Plant (PFP), located at the Hanford
Site in Washington State, became a highly contaminated nuclear facility while processing
plutonium for the nation's nuclear arsenal for approximately 40 years. In 2008, the Department
awarded CH2M HILL Plateau Remediation Company (CHPRC) a contract to decontaminate and
demolish PFP. Completion of work on PFP is the Richland Operations Office's (Richland) top
priority. The PFP work scope requires a well-trained workforce to decontaminate radioactive and
chemical residues from gloveboxes, tanks and process piping prior to their removal in preparation
for future demolition of the facility. Entries to contaminated spaces are performed in accordance
with "work packages" that identify the scope and hazards associated with the work and define the
methods and equipment to be used.

CHPRC's initial baseline estimate to remediate PFP was $581 million, with an expected
completion date of September 2013. Due to unforeseen situations with changes in the facility
condition, workforce restructuring, permitting issues and other challenges, the performance
baseline estimates were revised to $753 million, with a completion date of September 2014. These
costs included approximately $311 million in accelerated funding from the American Recovery
and Reinvestment Act of 2009 (Recovery Act) to assist in the completion of tasks such as
decontamination and removal of PFP's gloveboxes and demolition activities. Despite the influx of
the Recovery Act funds, our audit on Management of the Plutonium Finishing Plant Closure
Project (OAS-RA-L-11-01, November 2010), found that the project was at risk of not meeting the
contractor's projected completion date. We initiated this audit to determine whether the
Department had recovered schedule slippages and had effectively managed the PFP project.

RESULTS OF AUDIT

The Department encountered problems with CHPRC's ability to plan, manage and execute work;
factors which contributed to both cost and schedule increases. Notably as of March 2014, the PFP
project was expected to be completed in September 2016, at a cost of $932 million; 2 years behind
and $179 million over CHPRC's revised performance baseline. Performance problems included:
    •    Unavailable or deficient work packages: Richland officials noted during 2012, at least 40
         instances where work shifts for glovebox removal on the Remote Mechanical Lines A
         and C, a critical path task, were not worked due to either unavailable or deficient work
         packages. Project officials commented that workers are encouraged to "stop work" when
         uncertain on how to proceed, and that in some cases work instructions were indeed
         incorrect but in others, worker preferences on how work packages should be written
         stopped work.

    •    Insufficient labor resources to perform work: During the same period in 2012,
         Department project officials reported 47 instances where work shifts involving 9 to 12
         employees per team for the Remote Mechanical Lines A and C were not worked.

    •    Employees not always productively employed: The Defense Contract Audit Agency
         informed the Department in an October 2012 memorandum that several work teams at
         PFP appeared to not be performing any sort of work activity. Instead, employees were
         observed engaging in non-work activities such as reading books, playing chess and
         visiting on cell-phones for several hours.

    •    Crane malfunctions in the Plutonium Reclamation Facility at PFP: The 65-year old crane
         is a "single point failure" for the preferred method for the removal of 196 tanks used to
         recycle scrap plutonium. The crane was out of service due to malfunctions
         approximately half of the time since February 2010, when CHPRC completed
         preparations for the crane necessary to support tank removal activities.

    •    Productivity issues: Value Engineering studies performed by CHPRC and the
         Department noted the project experienced downtime, primarily due to work productivity
         issues such as unavailable work packages. For instance, in a 2013 study project officials
         stated that 80 percent of planned work was not performed when scheduled in 2012. This
         does not imply that the workforce was idle, but rather, there were delayed starts,
         rescheduled work, and other events that impacted the Field Execution Schedule.
         Management acknowledged that this was a major concern.

Due to the difficult nature of work at the facility both Department and contractor officials have
been well aware of the challenges in performing needed work at the PFP since early in the CHPRC
contract. The facility is 65 years old and significantly contaminated. Recognizing these
challenges, management has performed assessments and corrective actions to support continued
work. In fact, in October 2013, the Office of Environmental Management completed a Project
Peer Review of the PFP project, examining factors that may impede the schedule or increase the
cost of the project. In particular, this Review addressed the problem of workforce productivity and
availability concluding that "At this point, productivity cannot be determined." The Project Peer
Review noted that workforce availability had increased recently, but tempered this with "The
sustainability of this rate will be more definitive with time."

Contractor Remedial Actions

Project officials provided several explanations for the cited issues, problems which contributed to
the increased cost and a delay in schedule at PFP. In particular, officials stated that during the

                                                  2
timeframe noted in this report the project was experiencing rapid staffing changes. In part, these
changes were prompted by the end of the Recovery Act and the related impacts that the Hanford
Collective Bargaining Agreements had on site-wide workforce restructuring. Along with changes
to PFP's beryllium work permit, these impacts affected the availability of resources and increased
training. Consequently, fewer work packages could be authorized in the field, adversely impacting
the project.

Secondly, crane malfunctions adversely impacted schedules. In response, CHPRC stated that it
had maintained malfunctions as a risk in its Risk Management Plan since Fiscal Year 2009 and had
initiated risk mitigation planning thereafter. Specifically, the crane was evaluated for both
replacement and alternative options but the options were deemed unfeasible due to facility
configuration, contamination concerns and reliability issues. Also, officials stated that based on
independent recommendations and internal discussions in Fiscal Year 2013, it replaced most
electrical and mechanical components of the crane, including the crane motor. Officials also stated
that subsequent to implementation of these corrective actions, which occurred in late 2013, the
crane had performed reliably.

Finally, officials explained that in the case of deficient work packages, consistent with Hanford
Site policy, employees are encouraged to "stop work" in the event of differing actual conditions
(e.g., radiological readings), uncertainty on how to proceed on a step, operational or
system/infrastructure upset conditions, etc. Furthermore, CHPRC stated that in cases of work
stoppages, workers have to wait until issues were resolved or until new work is properly set up.
An internal investigation conducted by CHPRC found that this was the case for instances where
employees were not actively engaged in productive work. CHPRC also stated that given the
unanticipated stoppages, it may be difficult to find productive work for staff.

We understand that work stoppages on the project related to safety concerns and conduct of
operations impact the workers' ability to execute work inside the facilities. However, when these
situations arise workers should still be engaged in value-added work such as required reading,
training, revisions to work documents, or contingent work scope. The contractor came to realize
this and instructed managers and field work supervisors to develop alternate work that could be
given to employees who could not continue regularly scheduled shifts. In fact, the contractor
communicated to its employees that when situations occur that result in "idle" time, they should
contact their supervisor to ensure that they are fully employed during the day.

Federal Contract Administration

While we recognize that CHPRC acted to address a number of productivity problems, we
identified areas of needed improvement in Richland's administration of the CHPRC contract. For
example, Richland officials stated the contractor was not fully meeting the expectations of a
particular contract requirement regarding project reporting; however, it had not formally notified
the contractor of such. Improvements in Richland's administration of the CHPRC contract are
needed to ensure that productivity issues are identified and addressed in a timely manner in the
future. In particular, we found weaknesses in the following areas:

     •   Contract Requirements: Richland did not fully enforce contract requirements.
         Specifically, contract clause C.3.1.3.1, Project Performance Reporting, states "…that the
         contractor identify critical risks, actions planned, and actions taken to address those risks,

                                                   3
    potential problems, impacts and alternative courses of action, including quality issues,
    staffing issues, assessment of the effectiveness of actions taken previously for significant
    issues, or the monitoring results of recovery plan implementation." When we discussed
    this with Federal officials, they stated the contractor was not meeting the full expectations
    of this requirement. Richland acknowledged that it had not formally notified the
    contractor of this. Richland stated that fully meeting this requirement would provide the
    necessary project performance information to support budget planning, execution, audit
    and evaluation, and other Department performance assessment and information needs.

•   Tracking and Trending: Richland did not adequately track, trend and resolve these issues
    using a formal, quality assured, centralized corrective action system that would have
    included steps to perform causal analysis. Instead, officials developed a spreadsheet to
    informally track individual occurrences of lost work shifts and to identify trends.
    Information gathered in this manner did not lead to causal analysis and specific corrective
    action recommendations.

•   Corrective Action: Although Richland informed the contractor that it was required to
    review and improve its processes through Conditional Payment of Fee actions, it did not
    consistently require the contractor to develop a formal corrective action plan after
    discovering productivity issues. Richland's "Oversight of Contractors" procedure state
    that regardless of the method of oversight, if a concern or significant finding is identified,
    the contractor is to be formally notified of the issue and be required to develop a
    Corrective Action Plan. The Plan must be approved by the Department and corrective
    actions verified.

•   Audits and Assessments: Richland officials did not perform necessary audits and
    assessments as required by Department Order 414.1D, Quality Assurance. The Order
    requires the performance of audits and assessments to evaluate program and project
    processes, identify and correct problems, measure adequacy of work performance and
    promote improvement. Richland's procedures also required the performance of
    assessments, surveillances and special reviews to determine contractor performance in
    areas of health and safety, cost, schedule, work performance and quality assurance.
    Furthermore, the procedure included requirements for assessing potential performance
    issues and verifying appropriate contractor actions in response to previous concerns or
    findings. Despite these requirements, Richland's PFP project group had not performed
    formal assessments or surveillances of the project related to the productivity issues we
    identified since CHPRC assumed responsibility for PFP in 2008. Instead, officials relied
    on external reviews performed by organizations such as the Office of Environmental
    Management, and on informal reviews, called "Operational Awareness" reviews, for
    oversight of contractor activities. We noted, however, that Richland's own procedures
    indicate that "Operational Awareness" reviews are an informal method of oversight not
    intended to address potential performance issues. Furthermore, Richland's quality
    assurance function performed little in the way of audits and assessments of CHPRC's
    Quality Assurance Program implementation plan at PFP. In fact, the Office of
    Environmental Management noted in 2012, that Richland's quality assurance function
    had not performed any audits even though such activities were required by the
    Department and its Quality Assurance Implementation Plan.

                                              4
Richland management recognized that it needs to take additional steps to improve the manner in
which this important work is carried out and stated that they had taken key steps to improve safety
and productivity. However, we concluded that more needs to be done to improve Richland's
administration of the CHPRC contract.

RECOMMENDATIONS

We recommend that the Manager, Richland Operations Office ensure:

    1. The enforcement of contract requirements for identifying critical risks, actions planned,
       and actions taken to address those risks; potential problems, impacts, and alternative
       courses of action, including quality issues; staffing issues, assessment of the effectiveness
       of actions taken previously for significant issues; and the monitoring results of recovery
       plan implementation;

    2. Performance problems are adequately tracked and trended;

    3. CHPRC develops corrective actions plans to address productivity problems; and

    4. Formal quality assurance audits and assessments are performed as required.

MANAGEMENT REACTION

Management agreed with our recommendations and proposed corrective actions. Management's
formal comments are included in Attachment 3.

AUDITOR COMMENTS

Management's proposed corrective actions are responsive to the report's recommendations.

Attachment

cc: Deputy Secretary
    Acting Assistant Secretary for Environmental Management
    Chief of Staff




                                                  5
                                                                                   Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this audit was to determine if the Department of Energy (Department) recovered
schedule slippages and had effectively managed the Plutonium Finishing Plant (PFP) project.

SCOPE

The audit was performed from September 2012 to September 2014, at the Richland Operations
Office (Richland), PFP, and the CH2M Hill Plateau Remediation Company (CHPRC) in
Richland, Washington. The audit was conducted under Office of Inspector General Project
Number A12RL060.

METHODOLOGY

To accomplish the audit objective, we:

    •   Reviewed Federal and Department regulations and guidance on the application of
        quality assurance to Department programs and projects;

    •   Reviewed changes to project schedule and cost;

    •   Evaluated the results of prior audits and reviews;

    •   Reviewed information concerning lost work shifts associated with key portions of the
        PFP project;

    •   Determined the amount of time lost due to malfunctions with the Plutonium
        Reclamation Facility canyon crane;

    •   Reviewed information from Richland Integrated Evaluation Plan; and

    •   Met with Headquarters, Richland, and CHPRC officials to discuss the implementation of
        quality assurance principles to the PFP project.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe the evidence obtained provides a reasonable basis for
our conclusions based on our audit objective. Accordingly, we assessed significant internal
controls and compliance with laws and regulations necessary to satisfy the audit objective. In
particular, we assessed the Department's implementation of the GPRA Modernization Act of
2010 as it relates to our audit objective and found that the Department had established
performance measures applicable to the PFP project.

Because our review was limited, it would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit. We did not rely on computer-
processed data to achieve the objective of our audit. Management waived the exit conference.

                                                6
                                                                              Attachment 2


                                  PRIOR REPORT

•   Audit Report on Management of the Plutonium Finishing Plant Closure Project (OAS-
    RA-L-11-01, November 2010). The audit noted that the project had met its American
    Recovery and Reinvestment Act goal to hire an additional 300 employees for the project.
    However, it also noted that absent improvements within the next 12 months, the project
    may not be completed by September 30, 2013, as planned. Specifically the project was
    significantly behind schedule in decontaminating gloveboxes, a key activity on the
    critical path to completing the project on time.




                                           7
                      Attachment 3


MANAGEMENT COMMENTS




         8
    Attachment 3




9
                                         FEEDBACK

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We aim to make our reports as responsive as possible and ask you to consider sharing
your thoughts with us.

Please send your comments, suggestions and feedback to OIGReports@hq.doe.gov and include
your name, contact information and the report number. Comments may also be mailed to:

                               Office of Inspector General (IG-12)
                                      Department of Energy
                                    Washington, DC 20585

If you want to discuss this report or your comments with a member of the Office of Inspector
General staff, please contact our office at (202) 253-2162.
